No. 19-309

3Jn ~be

~upreme QCourt of tbe fflniteb ~tate~
GoVERNOR OF DELAWARE,

v.

Petitioner,

JAMES R. ADAMS,

Respondent.

On Writ of Certiorari to the United States
Court of Appeals for the Third Circuit
BRIEF FOR THE CHAMBER OF COMMERCE OF THE UNITED STATES
OF AMERICA, AS AMICUS CURIAE IN SUPPORT OF PETITIONER
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.l(h), I certify that the Brief for the

Chamber of Commerce of the United States of America, as Amicus Curiae in
.

.

Support of Petitioner in the above-referenced case contains 6,970 words, excluding
the parts of the brief exempted by Supreme Court Rule 33.l(d).

I declare under penalty of perjury that the foregoing is true and correct.
Executed on January 28, 2020.

Counsel for Amicus Curiae

2

